<html>
<title> - OPEN HEARING TO CONSIDER THE NOMINATIONS OF JOHN P. CARLIN AND FRANCIS X. TAYLOR</title>
<body><pre>[Senate Hearing 113-601]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 113-601
 
            OPEN HEARING TO CONSIDER THE NOMINATIONS 
              OF JOHN P. CARLIN AND FRANCIS X. TAYLOR

=======================================================================

                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                       TUESDAY, FEBRUARY 25, 2014

                               __________

      Printed for the use of the Select Committee on Intelligence
      
      
      
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



         Available via the World Wide Web: http://www.fdsys.gov
                    
                                ____________
                                
                                
                                
                       U.S. GOVERNMENT PUBLISHING OFFICE
93-212 PDF                 WASHINGTON : 2015                       
                    
______________________________________________________________________________________                    
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f394839cb3908680879b969f83dd909c9edd">[email&#160;protected]</a>  
                
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]

                 DIANNE FEINSTEIN, California, Chairman
                SAXBY CHAMBLISS, Georgia, Vice Chairman

JOHN D. ROCKEFELLER IV, West         RICHARD BURR, North Carolina
    Virginia                         JAMES E. RISCH, Idaho
RON WYDEN, Oregon                    DANIEL COATS, Indiana
BARBARA A. MIKULSKI, Maryland        MARCO RUBIO, Florida
MARK UDALL, Colorado                 SUSAN COLLINS, Maine
MARK WARNER, Virginia                TOM COBURN, Oklahoma
MARTIN HEINRICH, New Mexico
ANGUS KING, Maine
                     HARRY REID, Nevada, Ex Officio
                 MITCH McCONNELL, Kentucky, Ex Officio
                    CARL LEVIN, Michigan, Ex Officio
                   JAMES INHOFE, Oklahoma, Ex Officio
                              ----------                              
                     David Grannis, Staff Director
            Martha Scott Poindexter, Minority Staff Director
                  Desiree Thompson-Sayle, Chief Clerk
                                CONTENTS

                              ----------                              

                           FEBRUARY 25, 2014

                           OPENING STATEMENTS

Feinstein, Hon. Dianne, Chairman, a U.S. Senator from California.     1
Chambliss, Hon. Saxby, Vice Chairman, a U.S. Senator from Georgia     2

                               WITNESSES

General Francis X. Taylor, Nominee, Undersecretary for 
  Intelligence and Analysis, Department of Homeland Security.....     4
    Prepared Statement...........................................     7
John P. Carlin, Nominee, Assistant Attorney General for National 
  Security, Department of Justice................................    11
    Prepared Statement...........................................    13

                         SUPPLEMENTAL MATERIAL

Questionnaire for Completion by Presidential Nominees--Taylor....    32
Additional Prehearing Questions--Taylor..........................    64
Letter dated February 21, 2014, from International Association of 
  Chiefs of Police supporting General Taylor's Nomination........    87
Questionnaire for Completion by Presidential Nominees--Carlin....    88
Additional Prehearing Questions--Carlin..........................   108


                      OPEN HEARING TO CONSIDER THE



                     NOMINATIONS OF JOHN P. CARLIN



                         AND FRANCIS X. TAYLOR

                              ----------                              


                       TUESDAY, FEBRUARY 25, 2014

                                       U.S. Senate,
                          Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m., in 
Room SD-526, Dirksen Senate Office Building, the Honorable 
Dianne Feinstein (Chairman of the Committee) presiding.
    Committee Members Present: Senators Feinstein, Chambliss, 
Wyden, Udall (of Colorado), Heinrich, King, Collins, and 
Coburn.

 OPENING STATEMENT OF HON. DIANNE FEINSTEIN, CHAIRMAN, A U.S. 
                    SENATOR FROM CALIFORNIA

    Chairman Feinstein. We meet today to consider two 
intelligence positions, President's nominations for those 
positions. One is Mr. John Carlin, a very young-looking nominee 
to be assistant attorney general for national security in the 
Department of Justice; and the other is the slightly more 
mature General Frank Taylor, the nominee to be undersecretary 
of homeland security for intelligence and analysis.
    We have votes scheduled for 3:30, so my hope is we can be 
succinct to the point and be able to conclude this hearing 
within that time. But I'd like to begin by saying welcome to 
you both, and particularly to your family and friends who are 
here with you today.
    The two positions for which these nominees have been 
nominated were both created as a part of reform efforts in the 
past decade after major intelligence failures, including most 
specifically the terrorist attacks of September 11th, 2001. The 
assistant attorney general for national security in the 
National Security Division of the Department of Justice that 
Mr. Carlin would lead, if confirmed, is intended to bring 
together the counterterrorism, intelligence, and 
counterintelligence efforts within the Department of Justice.
    The National Security Division conducts oversight of FBI 
national security investigations and has the lead within DOJ 
for reviewing and approving requests to the FISA Court for 
surveillance activities. Increasingly important, the assistant 
attorney general must also ensure that when terrorists, 
proliferators, and spies against America come into our custody, 
our response strikes the proper balance between gathering 
intelligence from them and being able to prosecute them.
    Mr. Carlin is well-suited to the position, having served as 
the acting assistant attorney general since his predecessor, 
Lisa Monaco, went to the White House last year to become 
President Obama's top adviser for counterterrorism and homeland 
security.
    Mr. Carlin was previously the principal deputy assistant 
attorney and chief of staff for the National Security Division 
in 2011. He served in leadership positions at the FBI, 
including chief of staff to FBI Director Bob Mueller. He served 
in a variety of positions in the department between 1999 and 
2007.
    Our other distinguished nominee, General Frank Taylor, has 
a long career in national security, starting with his 31-year 
career in the United States Air Force, most of which was spent 
in the counterintelligence field. In 2001, he was named the 
coordinator for counterterrorism, the senior-most 
counterterrorism position in the State Department, and then 
assistant secretary of state in charge of diplomatic security.
    He spent the past nine years in the private sector, during 
most of which time he was the chief security officer for 
General Electric. In that position, he has seen the 
government's national and homeland security functions from the 
outside, giving him an important perspective on the Department 
of Homeland Security's support to nonfederal positions, 
partners, and stakeholders--specifically, the private sector.
    General Taylor will have to put his leadership skills and 
experience to good use as undersecretary of DHS for 
intelligence and analysis. The office, like the department as a 
whole, has a large number of missions to accomplish, with a 
long history and precedent to rely on.
    I'm going to cut my remarks short and put the remainder in 
the record and recognize the distinguished vice chairman for 
his remarks.

  OPENING STATEMENT OF HON. SAXBY CHAMBLISS, VICE CHAIRMAN, A 
                   U.S. SENATOR FROM GEORGIA

    Vice Chairman Chambliss. Well, thanks Madam Chair, and to 
Mr. Carlin and General Taylor, I join the chair in welcoming 
you to this Committee and congratulating you on your nomination 
by the President.
    Mr. Carlin, since Congress created the National Security 
Division as part of the post-9/11 effort to tear down the walls 
between the criminal and national security worlds, NSD has 
taken on a key role in our nation's intelligence collection 
activities. In the wake of the Snowden leaks, I understand the 
administration may be making some changes, especially to 
section 702 of FISA that will negatively impact how our 
intelligence agencies collect and retain information.
    When Congress passed the FISA Amendments Act, we were 
careful to not put up walls or prohibit lawfully collected 
information from being used. I hope you'll be a strong voice 
against any policies that try to undo the intent behind the FAA 
and that make it harder for our intelligence agencies to do 
their jobs.
    When you and I met in my office, we had a good discussion 
about this administration's ongoing failure to come up with an 
interrogation and detention policy that would allow for the 
collection of real-time, actionable intelligence, without 
defense attorneys, Miranda rights, or judicial deadlines.
    As a prosecutor, you understand there is no requirement to 
give a terror suspect Miranda rights. It just means you can't 
use his statements at trial. Captured terrorists can be gold 
mines for information that we should need, and therefore we 
should not treat them like ordinary criminals.
    Unless we can get good intelligence from these detainees, 
we could fall behind the curve in preventing future attacks. 
That's the risk that should not be acceptable to anyone, 
regardless of any campaign promise.
    NSD is also at the forefront of terrorism and 
counterintelligence investigations throughout the country. 
While the criminal justice system clearly plays an important 
role in national security thesis, I believe we should do more 
to make our military commission system a success. Now is not 
the time to bring dangerous criminals, dangerous terrorists, 
into the United States and give them the benefits of our 
criminal justice system. There is simply too much uncertainty 
following an acquittal, as we recently saw with the 
unsuccessful prosecution of the Somali pirate in federal court, 
here in the district.
    General Taylor, we thank you for returning to government to 
take on this new assignment: one that promises to be as 
difficult as any in your career, as you and I discussed a 
little earlier. Census creation, nearly a decade ago, DHS I&A, 
has struggled to find an organizational identity to fit in with 
the Intelligence Community and to attain the level of 
professional competence that the American people are entitled 
to expect in their government.
    For some time now, Members of Congress, on both the House 
and the Senate, and on both sides of the aisle, have questioned 
the very existence of I&A and the work that it does. Their 
questions about the quality and necessity of much of INA's 
analysis, concerns about INA's ability to process and share 
information, questions about the size of the workforce in 
relationship to its level of production, and concerns about the 
potential for DHS to safeguard cyber and critical 
infrastructure. All of these questions come at a time when I&A 
is still clinging to a corporate notion that it is a new 
organization.
    My comments are not intended to disparage the professional 
men and women who work for DHS. There are an awful lot of very 
capable, very professional individuals involved there, many of 
whom have begun to ask these same questions. Rather, my concern 
lies with the inability of I&A as a whole to routinely 
demonstrate a unique contribution to the national security of 
the United States.
    General, if confirmed, you may be the last, best hope for 
the future of DHS I&A. It's unlikely you will be able to keep 
I&A aloft by maintaining the current course in hitting, so I 
would like your candid thoughts about what you plan to do over 
the next 12 months to fix I&A for the long term.
    I have great confidence in Secretary Johnson. Secretary 
Johnson has great confidence in you. Therefore, I transfer that 
confidence, myself, to you. I look forward to our discussion 
today, and working with both of you in the future, and I thank 
you Madam Chair.
    Chairman Feinstein. Thank you very much, Mr. Vice Chairman. 
Gentlemen, would you stand and I'll administer the oath?
    [Witnesses comply.]
    Chairman Feinstein. Please affirm when I finish reading.
    Do you solemnly swear that you will give this Committee the 
truth, the full truth, and nothing but the truth, so help you 
God?
    [Witnesses respond affirmatively.]
    Chairman Feinstein. Thank you, you may be seated.
    And just a couple of questions--this is pro forma. Please 
answer yes or no.
    Do you both agree to appear before the Committee here or in 
other venues when invited?
    [Witnesses respond affirmatively.]
    Chairman Feinstein. Do you both agree to send officials 
from your respective offices to appear before the Committee and 
designated staff when requested?
    [Witnesses respond affirmatively.]
    Chairman Feinstein. Do you both agree to provide documents 
or any other materials requested by the Committee in order for 
it to carry out its oversight and legislative responsibilities?
    [Witnesses respond affirmatively.]
    Chairman Feinstein. Will you both ensure that your 
respected offices and its staff provide such material to the 
Committee when requested?
    [Witnesses respond affirmatively.]
    Chairman Feinstein. Do you both agree to inform and fully 
brief to the fullest extent possible all Members of this 
Committee, of intelligence activities and covert actions, 
rather than only the chairman and vice chairman?
    [Witnesses respond affirmatively.]
    Chairman Feinstein. Thank you very much. And if you would 
proceed and make your statements, and introduce your family or 
whomever you'd like to introduce in general, I'll go to 
seniority and ask you to speak first.

      STATEMENT OF GENERAL FRANCIS X. TAYLOR, NOMINEE FOR 
   UNDERSECRETARY OF HOMELAND SECURITY FOR INTELLIGENCE AND 
                            ANALYSIS

    General Taylor. I'm honored and extraordinarily humbled to 
appear before you today as the President's nominee for the 
undersecretary for intelligence analysis at the Department of 
Homeland Security. With me today is my elder son Jacquis, 
sitting behind me, representing our family. My wife is now in 
London visiting our daughter, who is studying to be a 
solicitor, and could not join us--she had already had this trip 
planned. So she's with us in spirit. I talked to her this 
morning.
    During my last period of government service, I was 
privileged to have the opportunity to work with Governor Ridge 
and his team as they endeavored to establish this new 
department in 2003. The department has come a long way since 
those early days, especially I&A, as its mission and 
responsibilities have continued to evolve.
    This position, and the team that I would be privileged to 
lead if confirmed, is a crucial link between the federal 
government and the Intelligence Community, with our state, 
local, tribal, and territorial partners, as well as the private 
sector that are on the front lines every day to protect our 
country and our citizens from an ever-evolving threat.
    As we learned in the aftermath of 9/11, security of this 
nation requires effective collaboration at every level of our 
country. Sharing information, both from the federal government 
as well as from our local partners to the federal government 
provides clear understanding of the nature of the threats that 
we face, and allow all levels to be on the same sheet of music. 
I remain haunted by the fact that at least one of the 9/11 
hijackers were engaged by local law enforcement before the 
attack, and their potential action against that person could 
not be accomplished.
    That is why we strive to create--that I will strive to 
create, if confirmed, I will work to strengthen and improve the 
process of how this partnership works to identify and act on 
potential threats to our country and our citizens. If 
confirmed, I believe my 43 years of law enforcement, security 
intelligence, and crisis management experience provides the 
right skills to build on the significant work of my talented 
and dedicated predecessors.
    I've had the distinct honor to serve our country as a 
leader of two global investigative and security organizations, 
as a U.S. ambassador directing diplomatic counterterrorism 
efforts, and diplomatic security operations. I also had the 
privilege of serving as the chief security officer for a 
Fortune 10 global U.S. conglomerate, the General Electric 
Company. In each of these roles, I have been responsible for 
mission execution and mission success, and I believe my record 
indicates consistent successful results in these very different 
roles. I've had both line and staff roles, worked in policy, 
developed, and executed budgets at every level, and led 
operational activity to mitigate risk to our country both in 
the U.S. and abroad and, as well, to an American economic 
giant.
    I understand that the I&A mission is different from any of 
the--of my past responsibilities, and that I will have to 
endeavor to learn the organization, its customer requirements, 
its successes, and its opportunities for improvement. The good 
news is that my initial assessment after a week of briefings is 
very positive about where the organization is in its 
development, and that there will be a firm foundation upon 
which for me to build.
    I think there are three areas where we must focus. First, 
enabling the fusion centers to reach their potential with 
effective information sharing and from this--to and from this 
important institution. Sustaining DHS's contribution to the 
Intelligence Community with information analysis derived from 
state, local, and tribal partners, and from a unique D.H. 
information sources. And finally, to aggressively eliminate 
duplicative analysis that can more effectively be done by other 
federal organizations.
    In my view, what makes I&A unique in the Intelligence 
Community is its mission to link the U.S. Intelligence 
Community with first responders in our country. State and 
locally owned and operated fusion centers are critical to 
bringing the 18,000 police entities across our great country 
into the national counterterrorism fight. Caryn Wagner, as well 
as the current I&A leadership team, began that process with the 
aggressive deployment of I&A personnel to the fusion centers 
and the development of a program of analysis that will guide 
the future production of our analytical products.
    If confirmed, I will work relentlessly on executing these 
plans to ensure all understand the critical aspect of the I&A 
mission is the nature and effectiveness of how we support our 
state, local, tribal, and public sector partners. Finally, I am 
acutely aware that no organization can live on its reputation 
or hide behind its mission statement. Organizations must 
continue to evolve and improve to meet changing environment 
that they must operate in. Mission assessment, the development 
of clear objectives, and rigorous metrics will help I&A stay 
focused on the present and the future. In my initial briefings, 
again, I am impressed by what I have seen as a baseline to set 
expectations and measure effectiveness.
    If confirmed, I plan to sustain these efforts and use these 
results as a basis for adjustments to the organization and 
mission execution. Madam Chairman, I'd like to submit the rest 
of my statement for the record and would conclude with those 
thoughts.
    [The prepared statement of General Taylor follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    
    Chairman Feinstein. Excellent. Thank you, General Taylor.
    Mr. Carlin.

  STATEMENT OF JOHN P. CARLIN, NOMINEE FOR ASSISTANT ATTORNEY 
   GENERAL FOR NATIONAL SECURITY IN THE DEPARTMENT OF JUSTICE

    Mr. Carlin. Thank you, Madam Chairman and Vice Chairman 
Chambliss, and distinguished Members of this Committee. It's an 
honor to appear before you today, and I thank you for 
considering my nomination. I'd like to thank the President for 
his confidence in nominating me, and the Attorney General for 
his support.
    Chairman Feinstein. Could you please introduce your family 
to us, because, there's one little girl that's through (ph) 
with expectation.
    [Laughter.]
    Mr. Carlin. She is. Thank you. I'd like to introduce them, 
and thank them for their love and support over the years--a few 
years, in one case: My wife Sarah and our daughter Sylvie; my 
parents, Roy and Patricia, who traveled here from New York 
City; and my mother in-law, Jura Newman.
    I also want to thank my wife for her countless sacrifices 
to allow me to pursue a career in public service; and to thank 
my parents who always taught my sister and me, both by lesson 
and by example, the importance of dedication, discipline and 
always doing what's right.
    With the support of all of my family and their 
selflessness, I've been able to choose the path that's led me 
here today. And I'd like to thank the people from the National 
Security Division in the department who've come here, along 
with friends, to show their support today.
    It's been a true privilege to spend my entire legal career 
with the Department of Justice and to witness a time of 
enormous transformation after the terrible events of September 
11th. As with so many Americans, I and my family recall vividly 
the events of that day--the horror of senseless murder and the 
dark cloud of ash that hovered over New York City.
    My brother-in-law was across the street from the twin 
towers and my father was in the subway underneath. And I 
remember as our family called each other to determine that we 
were safe. We were lucky.
    Our core mission at the National Security Division is 
clear: to prevent future terrorist attacks, while preserving 
our civil liberties. And it's a special honor and privilege to 
be considered for a position charged with leading the division 
that Congress, and this Committee in particular, created to 
unite all the Department of Justice's national security 
elements to bring all tools to bear in the fight against 
terrorism and other threats to national security.
    Serving as the acting assistant attorney general for 
national security for approximately the last 11 months, I've 
been both humbled and driven by the responsibilities and 
mission entrusted to this position. For more than a decade, 
I've learned from and worked alongside some legendary public 
servants as the United States undertook fundamental changes in 
our approach to combating the threat of terrorism and other 
emerging national security challenges.
    In particular, working with FBI Director Bob Mueller as a 
special counsel, and later as his chief of staff, to help the 
bureau evolve from a law enforcement agency into a threat-based 
intelligence-driven national security organization. Here at 
NSD, we must apply and are applying those lessons, both to meet 
the growing national security cyber-threat and to continue to 
evolve to meet other changing national security threats.
    If I am fortunate enough to be confirmed, I look forward 
both to continuing this important evolution and to working with 
this Committee in its essential oversight role.
    Thank you again for the opportunity to appear before you 
today, and for your consideration, and I look forward to 
answering your questions.
    [The prepared statement of Mr. Carlin follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Feinstein. Thank you both very much.
    We will proceed in our usual order, which is early bird 
regardless of party.
    Mr. Carlin, in your answers to the Committee's pre-hearing 
questions, you wrote the DOJ's National Security Division, 
quote, ``oversees all electronic surveillance and other 
activities conducted under the Foreign Intelligence 
Surveillance Act.'' So I know you have direct experience with 
DOJ oversight provided to FISA activities. Based on that 
experience, I'd like you to run through and explain, so the 
public understands, the various layers of oversight that the 
programs authorized by FISA, such as sections 215 and 702 data 
collection programs are subject to.
    Mr. Carlin. Thank you, Madam Chairman.
    And there are different layers. I'll try to walk through 
the different functions that are performed.
    First, at the agency that performs the collection activity, 
there will be supervisory oversight and Office of Compliance. 
Next, there will be the general counsel of that agency who will 
be informed of what the rules are, depending on the applicable 
authority, and be responsible for teaching and enforcing those 
rules.
    Then there will be the inspector general for the particular 
agency involved. There will also be the inspector general for 
the Intelligence Community writ large, and the Office of the 
General Counsel for the director of national intelligence.
    The National Security Division plays an oversight role as 
well, conducting review of the use of the authority and, 
depending on the particular incidents of the use of the 
authority, overseeing the application to another oversight 
element, which is that of the Foreign Intelligence Surveillance 
Court.
    Those are judges--just the same judges I appeared before 
literally in some cases when I appeared in criminal court, that 
have been tapped to appear in their Article III role, in 
addition to their normal duties as part of the Foreign 
Intelligence Surveillance Court.
    And finally, there is this Committee in particular, and the 
intelligence committees in Congress who have a particular 
oversight role in these areas and are kept current--currently 
and fully informed of the activities under the FISA Act.
    Chairman Feinstein. OK. It's my understanding that NSD does 
not generally conduct oversight of CIA human intelligence 
activities; covert action; three, DOD military activities; or 
four, NSA intelligence collection outside of FISA. As I 
understand it, within the Department of Justice, only the 
Office of Legal Counsel weighs in on these matters and then 
even only when they're asked.
    So here's the question. Should NSD play a role in reviewing 
the legality of intelligence collection outside of FISA by CIA, 
NSA and others?
    Mr. Carlin. Thank you. I--the division does not have the, 
as you have stated, Madam Chairman, a formal oversight role for 
other particular authorities. But we were created to serve as a 
bridge between the Intelligence Community on the one hand, and 
the Department of Justice and the law enforcement elements on 
the other, to ensure that the wall came down in terms of 
sharing of information and that there was visibility into the 
activities of the Intelligence Community.
    There are areas where we have a particular expertise, such 
as FISA. We're also assigned a role in terms of the attorney 
general's approval of attorney general guidelines that would 
get issued by the relevant agency, but then to the Department 
of Justice for approval. And there, our role would be in 
particular protecting the rights and privacies of U.S. persons.
    So, I'd be happy to work with this Committee on areas where 
our expertise fits in, as we've discussed, to the general 
layers of oversight that otherwise exist within the Community, 
including inspectors general and general counsels.
    Chairman Feinstein. Thank you. We will take you up on that.
    Mr. Vice Chairman.
    Vice Chairman Chambliss. Thanks, Madam Chair.
    General Taylor, you have said that one of your top 
priorities is to enhance the level of service that I&A provides 
to its unique customers in the private sector and at state and 
local levels. I&A has had historically low analytic production. 
For example, in 2012, it produced fewer analytic products than 
its total number of employees. How do you plan to increase the 
number of high-quality analytic products that are available for 
INA's customers without being redundant with other Intelligence 
Community efforts?
    General Taylor. Senator, thank you for that question. I 
think it's not simple, but it's kind of focusing on what's the 
mission of I&A. And the mission of I&A is to collect 
information from our state and local partners and turn that 
into intelligence that can be used in the Intelligence 
Community; to work specifically with the Intelligence Community 
to get information back to our state and local and private 
sector partners.
    But I think also to use the unique information within the 
department to produce intelligence. That is where we're going 
to focus. It's my view that that's not all happening as much 
today as it needs to happen going forward. But I intend to 
focus on those products that meet those kinds of needs.
    I would also add that the analytical products that I think 
the Committee has seen in the past are not the only products 
that we get asked--that I&A is asked to deliver. So one of the 
metrics that I'm thinking of looking at is what is the totality 
of the product base that I&A delivers? Where does it go? What 
are the customers saying about it? And then coming back to the 
Committee with a better understanding, or better picture of the 
totality of the work done by I&A, except--rather than just 
analytical products.
    Vice Chairman Chambliss. As we all know, CIA has 
jurisdiction of intelligence collection outside the United 
States. FBI has jurisdiction of intelligence collection within 
the United States' borders. The relationship between I&A and 
the FBI has not been what it really should be. I understand 
you're a friend of Director Comey, who is starting off 
certainly in the right direction at the FBI. He's had vast 
experience at the Department of Justice.
    Can you talk about how you expect to develop that 
relationship between I&A and the FBI to make sure that we're 
doing the best job we can within the borders of the United 
States to not only collect intelligence, but also provide the 
right analysis of that intelligence?
    General Taylor. Yes, sir. I--in my 43 years of government 
service have worked closely with the FBI at every level. I 
would tell you that I am not a person that believes in 
competitive--working to compete against an agency. I believe in 
building partnerships that look to the strength of each agency 
in performing the mission.
    So I commit to you that I will work with Director Comey and 
his team to make sure that what I&A is doing is complementing 
what he's doing, and we're complementing what the FBI is doing 
in a synergistic fashion. There's just far too much for us to 
do to be competing with each other. We should be able to work 
collectively for the best interests of our country and for 
collecting intelligence that defends America.
    Vice Chairman Chambliss. Mr. Carlin, a number of groups and 
organizations have been making recommendations on how to fix 
FISA in response to Edward Snowden's leaks of classified 
information. Some of these recommendations have been good, but 
a lot of them seem to be unworkable, both from a legal as well 
as a practical standpoint, and would in fact damage our 
national security collection efforts.
    Number one, do you believe NSA's telephone bulk metadata 
collection program fully complies with U.S. law?
    Mr. Carlin. I do.
    Vice Chairman Chambliss. Three of the five members of the 
privacy and civil liberties oversight board have said that the 
plain text of FISA business records statute does not authorize 
this bulk collection--bulk meta data collection program.
    What aspects of their legal analysis do you find to be 
problematic?
    Mr. Carlin. Just say--Senator that--do believe that it is 
the correct interpretation of the statute and that it is 
Constitutional as have 15 FISA court judges and now two 
district court judges. There is one judge who has found to the 
contrary. We have taken that case--the Department has taken 
that case up on appeal and it's being litigated in the court 
system.
    Senator King. Well, all right I'll leave your answer at 
that then. Very loose answer though, Jim (ph).
    Let me just lastly--quickly ask you, in your experience 
with the Foreign Intelligence Surveillance Court do you think 
it's been anywhere--anything like a rubber stamp?
    Mr. Carlin. I--no sir. I have not. It's--as I've said, 
today--but these are some of the same district court judges 
that I appear before in the criminal court. And they are 
respected jurists. They put us to our paces when I was a 
government lawyer appearing before them then. And they put us 
to our paces when they perform the same role in front of the 
Foreign Intelligence Surveillance Court.
    And I think some of the opinions in this unprecedented year 
of de-classifying thousands of pages of documents, I think some 
of the court opinions have shown the type of rigor that they've 
applied to their analysis.
    Senator King. OK, thank you.
    Chairman Feinstein. Thank you very much, Mr. Vice Chairman.
    Senator Wyden.
    Senator Wyden. Thank you, Madam Chair.
    Mr. Carlin I enjoyed very much visiting with you and as I 
indicated, if you're confirmed, you're gonna be responsible for 
overseeing a range of government surveillance activities and to 
be blunt, you're gonna have a lot of cleaning up to do.
    For years, the Justice Department has allowed the executive 
branch to rely on a secret body of surveillance law that was 
inconsistent with the plain meaning of public statutes in the 
Constitution. This reliance on secret law gave rise to a 
pervasive culture of information in which senior officials 
repeatedly made misleading statements to the Congress, the 
public and the courts about domestic surveillance.
    For example, officials from the National Security Division 
testified on multiple occasions that Section 215 of the PATRIOT 
Act was analogous to grand jury subpoena authority, which of 
course involves individual suspicion.
    The public can now see that this claim was extraordinarily 
misleading and the National Security Division's credibility has 
been damaged as a result.
    If you're confirmed to head the National Security Division, 
what are you going to do to end this culture of misinformation 
and ensure that statements made to the public, the Congress and 
the courts by the Department are accurate?
    Mr. Carlin. Thank you, Senator.
    I think it is of the utmost importance--and the attorneys 
I've worked with at the National Security Divisions share this 
view--that when we testify, whether it's before Congress or 
provide information to the courts or in other settings that we 
do our utmost to provide the full and complete and accurate 
information.
    If I may on the issue that arises in terms of 215 and grand 
jury subpoenas, it is of course in the statute itself the 
provision that the records that one can obtain through 215 need 
to be those records--similar to those records that one could 
obtain by a grand jury subpoena as it says in the statute or 
other court process.
    Two-fifteen is different than the issuance of a grand jury 
subpoena in part because of--one needs to apply to a judge 
prior to being able to obtain the authority. And I know that 
lawyers at the National Security Division and the department 
and elsewhere work to make sure that those portions at the time 
that were classified in terms of the applications of 215 were 
provided not just to this Committee as would be the normal 
course of business, but to ensure that, that interpretation of 
the law was made available to all Members of the Senate prior 
to the consideration of the 215.
    I--inclusion again, I believe it's very important to try to 
provide as accurate information, as complete information as 
possible to this Committee and to this body whether in 
classified or unclassified...
    Senator Wyden. If you're confirmed, I hope that will be 
accurate in the future, because I know when people heard those 
words, that this was analogous to a grand jury subpoena 
process, they said those kinds of processes involve individual 
suspicion. And, frankly, I don't know of any other grand jury 
subpoena that allow the government to collect records on this 
kind of scale.
    So I'm gonna move on.
    You've indicated that you are going to make a priority 
insuring that statements that are made, if you're confirmed, 
are accurate. In my view, that was not the case in the past.
    Let me ask you one other question, if I might.
    As the arguments in favor of bulk phone records collection 
have been crumbling, executive branch officials most recently 
have claimed that bulk collection allows the government to 
review phone records more quickly than would otherwise be 
possible.
    One official recently testified that it allows the 
government to do in minutes what would otherwise take hours. 
However, the Justice Department inspector general's January 
2010 report, on requests for phone records, describes an 
arrangement in which communications companies were able to 
respond to requests immediately and provide records in a format 
that could be immediately uploaded onto FBI databases.
    While the inspector general found some problems with the--
with this particular arrangement, speed was not one of them. In 
fact, the report goes on to note that the FBI's 
counterterrorism division described this arrangement as 
providing near real time servicing of phone record requests.
    Would it be fair to say that this report--a Justice 
Department report--indicates that phone companies are actually 
capable of responding to individual record requests very 
quickly?
    Mr. Carlin. Senator, I'm not totally familiar with the 
details of that inspector general report or whether that 
arrangement still exists at the FBI.
    But it has certainly been my experience, in the context of 
some particular cases--investigations that I can recall with a 
particular telecommunications companies that we have served 
particular requests on the company and that they have been able 
to respond very, very quickly to the FBI. And that, that speed 
has been critical in having that national security 
investigations hold people to account or to prevent future 
terrorist attacks, and that speed is critical.
    Senator Wyden. Well I share your view that speed is 
critical, but what we have is a FBI in effect Justice 
Department inspector general report indicating that it's 
possible to get that speed that we need with the kind of 
approach with respect to phone records without collecting other 
kinds of--without other kinds of processes, and that's my 
point, is that we're told that without metadata collection, 
we're not going to get it in a timely way. This report 
indicates that it is possible to get it in a timely way.
    Thank you, Madam Chair.
    Chairman Feinstein. Thank you very much.
    [Cross talk.]
    Senator Udall. Thank you, Madam Chair.
    Good afternoon, General Taylor.
    Good afternoon, Mr. Carlin.
    Mr. Carlin, let me turn to you for a series of questions. 
Last May, the White House formally announced that if a lethal 
operation will be considered against a U.S. person, that the 
Department of Justice--and I want to quote here--``will conduct 
an additional legal analysis to ensure that such action may be 
conducted against the individual, consistent with the 
Constitution and laws of the United States.''
    Two questions: What's the role of the NSD in that kind of a 
review? And who in the DOJ is responsible for ensuring that the 
facts supporting the department's legal analysis are accurate?
    Mr. Carlin. Thank you, Senator.
    In--there's a process set up that involves input from each 
of the departments and agencies now, before such a decision of 
that magnitude is made. That's the policy process that's been 
set up by the President.
    In terms of the extra legal analysis might occur, a 
decision of that magnitude would be made at the highest level 
of the department. And I would expect that before such a 
decision would be made, that the National Security Division, 
among other components, would be consulted.
    On the second question, in terms of the accuracy of the 
information that's provided, the accuracy of the information is 
usually determined by the departments and agencies providing 
it. So there's the collectors and the analysts. And they would 
provide, then, that information to the department and that 
would be the basis for a legal review.
    Senator Udall. Over time, I'm going to want to drill more 
into those questions. Because this is, as you know, a life-and-
death kind of process. But let me--let me turn to another 
question that's about accuracy.
    You wrote in your responses to the Committee that the 
decision to submit intelligence activities for legal review by 
the OLC is typically made by the Intelligence Community 
component that engages in that activity. Yet you also wrote 
that the NSD has the responsibility to ensure that the 
department's representations in court are accurate, and that, 
quote, ``the NSD attorneys must work diligently to understand 
the facts of intelligence activities and other national 
security- related matters that may be at issue in litigation or 
other matters for which they're responsible.''
    Now, to me, those statements appear to conflict with each 
other. So in your view, how is the Justice Department supposed 
to ensure the accuracy of representations to the courts in 
criminal cases or FOIA litigation, I should say, and so on, 
without an independent review of the accuracy of Intelligence 
Community representations?
    And I ask that question in light of what former CIA General 
Counsel Stephen Preston's responses to my questions last year 
about the CIA's detention and interrogation program, where--and 
he wrote that the DOJ does not always have accurate information 
about the detention and interrogation program and that the 
actual conduct of that program was not always consistent with 
the way the program had been described to the DOJ, and that 
further, CIA's efforts fell well short of our current practices 
when it comes to providing information relevant to the OLC's 
legal analysis.
    Mr. Carlin. Thank you, Senator.
    Your question is important and it's important as officers 
of the court. And any attorney for the National Security 
Division when making a representation does everything that they 
can to assure that the representation is accurate.
    And also if they were to learn or discover that information 
is inaccurate or misleading, to take steps with the relevant 
agency in order to correct the record.
    There were several different decision-making processes that 
you've alluded to, some of which are more involved with than 
others. So in terms of representations before the Foreign 
Intelligence Surveillance Court, that is one where our 
attorneys would be working to make the representations; would 
be working with the relevant elements of the Intelligence 
Community in order to provide the necessary facts to the court.
    And as I described earlier to the chairman, there are a 
variety of mechanisms, including the attorneys, to try to 
ensure that accuracy, including the Office of General Counsel, 
the component of various inspectors general, and our oversight 
role and section.
    Senator Udall. I'm going to stay involved with you on this, 
as I am with the Intelligence Community itself. Let me--one 
last question. I want to talk about executive order 12333, with 
which you're familiar. I understand that the collection, 
retention or dissemination of information about U.S. persons is 
prohibited under executive order 12333, except under certain 
procedures approved by the attorney general. But this doesn't 
mean that U.S.-person information isn't mistakenly collected, 
retained and then disseminated outside of these procedures.
    So take this example. Let's say the NSA is conducting what 
it believes to be foreign collection under E.O. 12333, but 
discovers in the course of this collection that it also 
incidentally collected a vast trove of U.S.-person information. 
That U.S.-person collection should not have FISA protections. 
What role does the NSD have in overseeing any collection, 
retention or dissemination of U.S.-person information that 
might occur under that executive order?
    Mr. Carlin. Senator, so generally, the intelligence 
activities that NSA would conduct pursuant to its authorities 
under 12333 would be done pursuant to a series of guidelines 
that were approved by the attorney general, and then ultimately 
implemented through additional policies and procedures by NSA.
    But the collection activities that occur pursuant to 12333, 
if there was incidental collection, would be handled through a 
different set of oversight mechanisms than the department's by 
the Office of Compliance, the inspector general there, the 
general counsel there, and the inspector general and general 
counsel's office for the Intelligence Community writ large, as 
well as reporting to these committees as appropriate.
    Senator Udall. So you don't see a direct role for the NSD 
in ensuring that that data is protected under FISA?
    Mr. Carlin. Under FISA, no. Under FISA, we would have a 
direct role. So if it was under--if it was collection that was 
pursuant to the FISA statutes, so collection targeted at U.S. 
persons, for example, or collection targeted at certain non-
U.S. persons overseas that was collected domestically, such as 
pursuant to the 702 collection program, that would fall within 
the scope of the National Security Division.
    That's information that--and oversight that we conduct 
through our oversight section, in conjunction with the 
agencies. And we would have the responsibility in terms of 
informing--working with them to inform the court if there were 
any compliance incidents and making sure that those compliance 
incidents were addressed.
    Senator Udall. Thank you. My time is obviously expired. But 
I think you understand where I'm coming from here. One is to 
make sure that DOJ and you in your capacity have the most 
accurate information so that you can represent the United 
States of America and our citizens in the best possible way. 
And secondly, that you have a role to play in providing 
additional oversight. Those are all tied to having information 
that's factual, based on what happened.
    And again, I'm going to continue to look for every way 
possible to make sure that that's what does happen, whether 
it's under the auspices of the IC or the DOJ. You all have a 
joint responsibility to protect the Bill of Rights.
    Thank you.
    [Cross talk.]
    Senator Collins. Thank you, Madam Chairman.
    General Taylor, I spent many years as either the chair or 
the ranking member of the Homeland Security Committee. And my 
greatest disappointment in the last Congress is that we did not 
enact a cyber security bill since I believe we're extremely 
vulnerable to attacks. And indeed, we know that every day, 
nation-states like China, Russia, Iran are probing our 
computers, leaving behind malware. Transnational criminal gangs 
also are invading our--our computer systems, and terrorist 
groups also have that as a goal.
    I know that you served as chief security officer at General 
Electric. I'm interested in what you believe I&A, which has the 
special responsibility to share information with the private 
sector, to be the recipient of information from the private 
sector, and disseminate that to governments at all levels.
    What particular improvements would you like to see when it 
comes to information sharing?
    General Taylor. Thank you, Senator Collins.
    I would say that in my eight-and-a-half years at GE, I was 
not always happy with the quality and the consistency of 
information I received on threats that would impact our company 
writ large, and particularly cyber issues. I think that has 
begun to improve.
    And my focus will be on ensuring that--I think I--well, two 
things. I think the department plays a critical role from NPPD 
in reaching out to the private sector. And indeed, many 
companies have now joined in partnership with DHS around the 
NPPD and critical infrastructure protection and exchanging 
information on a continuous basis. I think that has to 
continue.
    But I think we've got to do a better job on the I&A side of 
developing the intelligence that helps companies--and not--
companies the size of GE have the resources to kind of look 
into these things more thoroughly than many, many other 
American companies. Those are the companies that need to 
understand what the risk is; understand how they're being had. 
And I think we can give them that through analysis from I&A, 
both from the IC and from our components within DOD--within 
DHS.
    Senator Collins. Well, I hope we'll see more analytical 
reports, as the ranking member pointed out. There's something 
really wrong when there are more employees and contractors than 
there are--there are analytical reports being issued.
    I am very impressed with what is going on at the NCIC and I 
hope that you'll invite Members of this Committee, as well as 
the Homeland Security Committee, to come out and let them see 
the real-time monitoring that's done of government computers 
because that's an important vulnerability as well.
    But the fact that we still are not sharing critical threat 
information, particularly with the owners and operators of 
critical infrastructure, is just unacceptable in this day and 
age. And I hope that should you be confirmed, that you will 
make that a priority.
    General Taylor. Senator, if confirmed, that will be a top 
priority for me. I lived that for eight-and-a-half years and 
want to see what I can do to help us close that gap.
    Senator Collins. Mr. Carlin, according to news reports, the 
charges against Ali Mohamed Ali for his alleged role in a 2008 
pirate attack near Yemen have been dropped after he was 
partially acquitted by a jury last year. This raises the whole 
dispute once again of how foreigners who are brought to this 
country or arrested here should be handled, and whether it 
should be in military tribunals or in regular criminal courts.
    We now have the bizarre situation where the failure to 
successfully prosecute a suspected terrorist, pirate in federal 
court has now resulted in his seeking asylum so that he can 
stay in this country. What's your reaction to this case? And 
what does it say as far as our ability to ensure that those who 
pose a threat to this country--foreigners who pose a threat to 
this country should be handled--prosecuted in federal courts 
versus military tribunals?
    Mr. Carlin. Well, Senator, without commenting on a 
particular individual's application, that as you say that was a 
piracy case. After the increased incidence of piracy in 2011, 
there were a number of prosecutions of pirates. I think we did 
obtain convictions in 25 or 26 of those cases, and that piracy, 
not just due to that effort, but other international efforts, 
has decreased in that region, but continues to be a threat.
    In general, we need to use an all-tools approach where the 
Article III option is one of the tools in the toolkit, but that 
we look at all tools whenever we face a particular case. And we 
look first to obtain the maximum amount of intelligence, 
speaking now not so much about piracy, though it's true there, 
particular in terrorist acts or terrorist cases, and to look to 
gain--obtain intelligence first, to try to prevent terrorist 
attacks. That needs to be our first priority.
    And we also need to look to deter and disable the threat 
that a particular individual or group may pose. And if 
confirmed, I will advocate and attempt to provide as many 
options as possible when we're trying to make those decisions.
    Senator Collins. Thank you.
    [Cross talk.]
    Senator Coburn. Thank you, Madam Chairman.
    General Taylor, first of all, most people don't know you 
didn't have to do this. And the fact that you're coming back to 
serve again is highly admirable, and I want to thank you for 
that.
    You said you'd read the report that Senator Levin and I put 
out on fusion centers. And I have to agree with a lot of what 
Senator Chambliss had to say.
    My assessment when I talked to the people receiving the 
analysis from I&A and homeland security is it's not on time, 
it's not late, and it's not accurate. And half the time, it's 
old information that was collected not through the Intelligence 
Community, but is published data. And so the quality of the 
work in many instances actually is very, very poor. And so, 
when you--when you go and talk to people who receive them, they 
don't even read them. Because they think they have no value. 
There's no incremental increase in the value of what is being 
put out.
    So, given that, as you look at this and see whether or not 
there's a capability there that we really need, I don't 
disagree with you about sharing threats downward. I have yet to 
see much information come from any fusion center into I&A, and 
that then comes that is both timely and accurate and not 
repetitive. So, I guess my question is, is if it is seen by 
you, after looking at this, that it's redundant and irrelevant, 
would you agree that maybe it ought to be minimized to where 
it's mainly a conduit down, and when we do get some information 
that needs to be forward, we can do that, rather than duplicate 
what's already going on?
    General Taylor. Senator, first of all, thank you for your 
comments about my service. You may know that I began my career 
at Tinker (ph) Air Force Base in Oklahoma, some 43 years ago, 
and that was a--quite a launch place to get me here. So, I'm 
excited to be here to be able to serve again.
    I read the report. I have heard from our stakeholders, both 
at the state and local level, and within the IC, and within the 
department. What I would commit, sir, is to a thorough analysis 
of what the mission is. Because I think there's some confusion 
in terms of the elements of I&A, in terms of what the actual 
mission is with regard to the fusion centers. I think it is our 
core responsibility. No one else in the government has this 
responsibility to link the locals to the IC. So, I'd like to 
evaluate that, develop the metrics around what we're supposed 
to be producing, and then, if we are able to produce those 
things, come back to the--to you, sir, and to the SSCI and 
present those results.
    I think there is value, here, but I haven't had enough time 
to really get my arms around it, but I--if confirmed, I would 
expect, in very short order, to be able to do that and come 
back with a plan of action to implement the mission we've been 
assigned. And if it's not there, to not do it. And to come with 
that recommendation based on the facts that we find in--in a 
mission analysis.
    Senator Coburn. Well, I appreciate, and I have a lot of 
confidence that you're the right man for this job at this time, 
and my hope is that we get some clarity as to what can be done 
and effectively done. One of the things that's happening, we're 
seeing some improvement in homeland security in a lot of areas, 
and like Senator Collins, we need a cyber-security bill. We 
know that. I think the President did a good job in terms of his 
executive order, but we still have a ways to go there, and it's 
important that the intelligence and analysis that's carried out 
has value, because--and the problem maybe, right now, it may be 
improving in value, but nobody's paying any attention to it 
because it hadn't had any value in the past.
    So, my hope is, is that you'll have Godspeed in making that 
assessment and truly using metrics, your customers, of whether 
or not it has value.
    General Taylor. Senator, you have just outlined my 
leadership philosophy, and that's how I've approached every 
mission I've been given, and I also believe it's important that 
as we take this journey, that we're in lockstep with this 
Committee in terms of what the expectations are, so I intend to 
spend a significant amount of time with the staff and with the 
Members to get feedback on what we're doing. I believe in full 
transparency. I believe in metrics, and if the facts take us in 
a way that we don't like, the facts are the facts, and we'll 
have to make decisions from this.
    Senator Coburn. Thank you. I yield back.
    Chairman Feinstein. Thanks, Senator Coburn.
    Senator Heinrich.
    Senator Heinrich. Thank you Madam Chairman. Mr. Carlin, 
General Taylor, welcome to you both. Mr. Carlin, you and I had 
the opportunity to talk a little bit last December, and I just 
wanted to follow up on one of the issues that we talked about 
when you came to my office.
    As you know, in October of 2013, after months and months of 
discussion and debate in which you and the NSD were involved, 
DOJ adopted a new policy by which federal prosecutors would 
inform defendants when they were intended to--when they 
intended to offer evidence informed, obtained, or derived from 
intelligence collected under 702 of FISA. And when you and I 
met in December, you informed me that that policy had not yet 
been reduced to a formal written policy, and so, Mr. Carlin, I 
wanted to ask: is that process done yet, and has that policy 
been finalized, and if so, has it been disseminated in--in a 
written form?
    Mr. Carlin. Thank you Senator, and thank you for having 
taken the time to meet prior to this hearing. Just in terms of 
the question. I--it is my understanding that it was the 
practice of the policy of the department to inform a defendant 
in a criminal case and give notice if there was 702 information 
that was going to be used against them prior to--prior to this 
change in practice.
    The change in practice had to do with a particular set of 
circumstances when there was an instance where information 
obtained from one prong of the FISA statute 702 was used and 
led to information that led to another prong of FISA, Title I 
FISA, being used, and that when the notice was given to the 
defendant, that notice was referring to one type of FISA but 
not both types of FISA, and that is the practice that we 
reviewed and changed, so that now, defendants are receiving 
notice in those instances of both types of FISA.
    The review of cases affected like that--affected by that, 
continues, but we have filed such notice, now, I believe in 
three criminal matters, including the case of Muhamad Muhamad 
(ph), the individual convicted by a jury of attempting to use 
an explosive device on the Christmas tree lighting ceremony. In 
reference to that case, we have now filed--there's a filing in 
that case that we should provide to your staff while we lay out 
what our practice is, and I will ensure--I will ensure that 
filing is distributed to U.S. attorneys' offices across the 
country so they know exactly what our position is on that 
issue.
    Senator Heinrich. That's helpful. And so you'll share 
with--that with the Committee as well?
    Mr. Carlin. Yes sir.
    Senator Heinrich. Great. Let's move on then to 
declassification real quick. I have a quick question on that 
front. And, in your response to Committee questions, you 
indicated that you and others within NSD meet regularly with 
ODNI personnel on multiple issues, and among those that you 
listed were classification - sorry, declassification and 
transparency matters. On December 29th of 2009, the President 
signed Executive Order 13526, which directs, among other 
things, that in no case shall information be classified, 
continue to be maintained as classified, or fail to be 
declassified in order to conceal violations of law, 
inefficiency, or administrative error, prevent embarrassment to 
a person, organization, or agencies, or prevent or delay the 
release of information that does not require protection in the 
interest of national security. What's NSD's role and 
responsibility in determining whether something is properly 
declassified--sorry, properly classified, particularly as it 
relates to that Executive Order 13526?
    Mr. Carlin. Thank you Senator. NSD really does not play a 
role in that executive order in determining whether the 
information is properly classified in the first instance. That 
would be a decision that's made by the relevant agency or 
department would have expertise with the particular sources and 
methods and would be reviewed. Assume, ultimately, if there was 
a dispute by their general council or inspector general, we 
have played and do play a role in the ongoing review in terms 
of coordinating the declassification, particularly of FISA 
related pleadings or court opinions, and we've been playing an 
ongoing role in that review that has led to the 
declassification by the director of national intelligence and 
thousands of pages of documents, and I would expect we would 
continue to play a role in that if confirmed.
    Senator Heinrich. That's very helpful, Mr. Carlin, and I 
want to thank you both for being here today. Thank you 
Chairman.
    Chairman Feinstein. Thank you, Senator Heinrich
    Senator King. Our wrap-up questioner.
    Senator King. Thank you, Madam Chairman.
    Mr. Carlin, the President made a speech on January 17th on 
national security policy. He called for the creation of panels 
of advocates to assist the FISA court. This Committee passed an 
amendment as part of our bill that created an opportunity for 
the court to appoint amicus assistants in that process. Do you 
have any insight on what the President had in mind in that 
statement, and was what we did along the lines of what the 
President intends?
    Mr. Carlin. Not sure, Senator, I can speak ultimately to 
where the administration position is, but I have stated before 
that I think it would be helpful in certain instances if the 
FISA court needed additional assistance or briefing on a 
complicated interpretation, that they'd be able to tap such a 
panel, and your bill would provide the ability for them to do 
so, and to hear that amicus--amicus view.
    Senator King. Thank you.
    I understand that one of the responsibilities that you all 
have at the division is oversight, and that you're developing a 
training program for IC personnel. Could you tell us where that 
stands? Is it happening? Will it--is it mandatory for all IC 
personnel? Does it deal with the Fourth Amendment and those 
kinds of principles? What's the nature of that program?
    Mr. Carlin. I'm not sure I'm familiar with this specific 
program that you're referencing, but we do work with, for 
instance, the NSA in the development of training programs, 
particularly those programs that are on the procedures, the 
compliance procedures that would be ordered by the court, such 
as minimization procedures. We would help in the development of 
that curriculum. And then I know our attorneys also go and 
train, in particular, on those issues. And we also help provide 
similar training, I know, to the FBI.
    Senator King. Does the IC personnel generally regularly, 
routinely receive training that reflects the values embodied in 
the First Amendment? Because this is--the business that they're 
in is finding that right balance on a day-to-day basis. Is this 
part of the entry process for somebody coming into the NSA or 
the FBI or the CIA?
    Mr. Carlin. I'm not sure I'd have the expertise to speak 
writ large as to the training programs for every element of the 
Intelligence Community. Having spent time at the FBI, I know 
for the FBI, that is part of their training programs. And I 
know it's--these issues and issues in terms of privacy and 
protection of U.S. persons are definitely a part of the 
training program at the NSA. And I expect that each who is 
subject to attorney general-approved guidelines in terms of the 
protection and handling of U.S. person information would 
receive training as part of the curriculum on those protected 
procedures.
    Senator King. Thank you.
    General Taylor, you have a very important responsibility. 
And I, like Senator Coburn, appreciate your willingness to step 
forward once again, and undertake service to your country.
    We spend approximately $75 billion a year on intelligence 
between military and civilian. That is a lot of money. And it's 
increased dramatically, as you know, since September 11th. So, 
the role of communicating and sharing, but at the same time, 
not duplicating, is really essential. And I hope that you will 
take seriously the comments and questions of Senator Coburn. 
And I want to associate myself with them. And here's my 
question.
    If you, who are starting with a blank sheet of paper to set 
up a system to share information among intelligence and law 
enforcement, would you--what would you come up with? Would it 
be the fusion centers, or would it be some other--some other 
kind of entity?
    General Taylor. Well, thank you, Senator, for your comments 
about my returning to service. I am looking forward to working 
with this Committee, and certainly with our colleagues at DHS.
    My sense, Senator, is--the institutions exist. It's 
connecting the institutions appropriately. So, I wouldn't start 
with a blank slate. I'd figure out where the nexus (ph) are 
between the institutions that are currently working these 
issues.
    Take fusion centers, for instance. Governors--adjutant 
generals love them because it's all source, all hazard. And so, 
why not use that capacity? It's already looking at all source, 
all hazards to help inform the Intelligence Community, which is 
really the sweet spot for I&A.
    And if we--if we do our job properly, we won't be 
duplicating any work that's done by the FBI and the JTTF. We 
don't do investigations, we don't do overt--we don't do 
clandestine collection of intelligence, we take information 
from our partners and try to turn it into information that's 
useful. And also, take information from the IC (ph) just to 
send it back. I should say I&A does.
    If confirmed, I will be a part of that great team. But I 
think it's making sure that the mission is clear, the 
objectives are linked, and the outcomes meet the expectations 
of our customers and partners, as opposed to kind of doing what 
we were--what we did before we came to the--to I&A, for 
instance. When we came out of the IC, (ph) we did it a certain 
way. If we came out of the FBI, we did it another way.
    Senator King. Well, I understand the IG is looking at some 
of the activities and at the GAO report. And I hope--I think 
you used the term--this term, Senator Coburn, and that is 
``value,'' and determine the value achieved versus the cost--
what the proper cost-sharing relationship should be with the 
states and localities. Because--you know, every hearing I go to 
is--we've partially removed the cloud of sequestration for a 
year or so, but it's not gone. And I think it's safe to say, 
we're going to be in a budget-constrained attitude for some 
period of years. And therefore we have to constantly be 
thinking about how do we achieve the same or greater value at 
the same or lesser cost?
    So, I commend that mission to you, sir.
    General Taylor. Yes, sir. Well, one of my marching orders 
from the secretary is to do just that--to eliminate duplication 
where it exists, and to improve the efficiency of our mission 
execution within I&A. And I intend, if confirmed, to follow 
those instructions, as well as your instructions, sir.
    Senator King. Well, if you are successful in eliminating 
some duplication around here, I'll put in a bill to build a 
statue of you in the courtyard.
    [Laughter.]
    Thank you very much, General.
    General Taylor. Yes, sir, thank you.
    Senator King. I appreciate it.
    Chairman Feinstein. Thank you very much, Senator King. It 
looks like we will be able to make this vote.
    I just want to say one thing to both of our nominees. You 
both occupy points of great interest to this Committee. And I 
will hope that you will be coming before us singly within the 
nest six-month period.
    I think, General Taylor, we really want to delve into more 
detail on your mission as you see it--the reduction of 
contractors within your organization, and the increase of 
fresh, bright, new intelligence. So we will do that.
    Mr. Carlin, your division is very important to this 
Committee. It is a very vital part of the oversight role. And I 
think you, too, might want to give some additional thought to 
it, and come before the Committee. And I think we should talk a 
little bit about it.
    And I see a very beautiful young lady I happen to have some 
Senate lollipops for in the front row.
    So, I'm going to say one thing about questions from the 
Members. We'd like to have them in by close of business on 
Friday so that we can move--take our vote and move these 
nominees as soon as possible. If we get them in, we'll schedule 
the vote for next week.
    So, thank you both. Thank you, ladies and gentlemen. And 
the hearing is adjourned.
    [Whereupon, at 5:53 p.m., the Committee adjourned.]
                         Supplemental Material

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
  

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
